                    Development and Implementation of
                      an Enterprise Business System

                                   January 2004

                       Reference Number: 2004-1C-031




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            January 5, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Development and Implementation of an Enterprise Business
                              System (Audit # 20041C0215)


       The Defense Contract Audit Agency (DCAA) provided auditor involvement concerning
       the contractor’s development and implementation of an Enterprise Business System
       (EBS) in accordance with DCAA audit guidance. The purpose of the assignment was to
       determine whether the contractor instituted appropriate controls during the development
       of the EBS prior to relying on the system to accumulate, report, and bill costs on Federal
       Government contracts.
       The DCAA indicated that the contractor has completed the system preparation, design,
       and configuration processes of the implementation process. According to the DCAA,
       test results and the contractor’s accomplishment of several action items will significantly
       affect the contractor’s “Go/No Go” decision concerning whether the implementation date
       of January 1, 2004, is attainable. The DCAA’s involvement to date has not disclosed
       any system design and configuration issues that would adversely affect the Federal
       Government.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
